No. 20-1499
AMERICAN CIVIL LIBERTIES UNION,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Brief of Amicus Curiae Microsoft
Corporation in Support of Petitioner was sent via
Federal Express to the U.S. Supreme Court on May
27, 2021. Additionally, a copy of the brief was sent to
counsel for the Petitioner and Respondent by
overnight Federal Express, as well as by transmitting
a digital copy via electronic mail.
Theodore B. Olson
Gibson Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
tolson@gibsondunn.com
Elizabeth B. Prelogar
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
SupremeCtBriefs@USDOJ.gov
/s/ Robert M. Loeb
Counsel of Record

